U.S. Department of Labor                                 Office of Inspector General
                                                         Washington, D.C. 20210




September 17, 2010


Mr. T. Michael Kerr
Assistant Secretary for Administration
  and Management
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

            RE: Report No. 18-10-011-07-001, “Recovery Act: Use of Departmental
            Management Funds”

The purpose of this letter report is to inform you of the results of our performance audit
to determine if the Department of Labor (Department) has plans to ensure it properly
obligates Departmental Management (DM) funds received under the American
Recovery and Reinvestment Act of 2009 (Recovery Act) by September 30, 2010.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Department was required to increase employment and training opportunities, expand
unemployment benefits, enforce worker protection laws, encourage collaboration
between the public workforce investment system and other agencies that received
Recovery Act funds for infrastructure projects, and construct, rehabilitate, acquire, and
operate Job Corps Centers.1 The Recovery Act requires Federal agencies to implement
an unprecedented level of transparency and accountability to ensure the public can see
where and how their tax dollars are being spent.

The Recovery Act designated $80 million for DM purposes. DM funding can be used for
the enforcement of worker protection laws and regulations, oversight, and encouraging
collaboration between the public workforce investment system and other agencies that
received Recovery Act funds for infrastructure projects. Within the Department, the
Office of the Assistant Secretary for Administration and Management (OASAM) is
responsible for oversight and monitoring of DM funding. The Recovery Act required the
Department to submit an operating plan to Congress explaining its planned use for $80
million, which, according to the Recovery Act, should be obligated by
September 30, 2010.

Our objective was to determine if the Department has plans to properly obligate the $80
million in DM funds by September 30, 2010.



1
    See Attachment 1 for a detailed listing of Recovery Act funding provided to the Department.
To meet our objective, we reviewed DM Recovery Act obligation reports and the
operating plans the Department submitted to Congress during the period September 30,
2009, to August 13, 2010, and obtained an understanding of internal controls as they
related to our audit objective. We interviewed Department officials in Washington, D.C.,
to obtain explanations from agencies that did not plan to use all of their DM funds.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Results

As of August 13, 2010, the Department had obligated $37.1 million of the $80 million in
Recovery Act funds designated for DM purposes, and had plans to obligate another
$24.1 million. The Department did not have plans to obligate the remaining $18.8
million. (See Attachment 2 for details of the Recovery Act obligations.)

Nothing came to our attention that DM Recovery Act funds were obligated for anything
other than the purposes intended. The Department issued guidance to agency heads on
recording Recovery Act DM obligations, assigned a unique Treasury Appropriation Fund
Symbol for Recovery Act DM obligations, approved agency operating plans, and
instituted a process whereby agency liaisons and the Chief Financial Officer review
Recovery Act DM obligations.

The Recovery Act states that funds not obligated by September 30, 2010, will expire. As
of August 13, 2010, the Department had not submitted a revised operating plan to
Congress. (See Attachment 3 for the three operating plans submitted to Congress by
the Department.)

According to Department officials, the need for DM funds has been less than originally
anticipated; therefore, not all of the $80 million has been obligated. For example, Wage
and Hour Division’s plan to obligate $21.9 million decreased to $15.1 million because it
hired 94 employees instead of the 116 it expected to hire. Also, officials in the Office of
Labor Management Standards (OLMS) stated due to delays the Federal Transit
Administration2 (FTA) experienced in awarding Recovery Act funds for public transit
projects, the original budget projections for the number of grant applications that FTA
would refer to OLMS for certification were overstated. As a result, OLMS plans to
obligate approximately $154,000 of its $470,000 Recovery Act funding.


2
    An agency within the U.S. Department of Transportation.




                                                          -2-
We appreciate the assistance and cooperation that Department personnel extended to
the Office of Inspector General during this audit. Please contact Paula N. Denman,
Audit Director, at (972) 850-4003, if you have any questions.




Elliot P. Lewis
Assistant Inspector General
  for Audit

cc: 	 Edward C. Hugler, Senior Accountable Official for the American Recovery and
      Reinvestment Act of 2009




                                         -3-
                                                                                                             Attachment 1



The Recovery Act provided the Department with approximately $70.8 billion as of
August 19, 2010.


Department of Labor Recovery Act Funding, as of August 19, 2010 (unaudited)
                                                     Amount a
Program                                             (millions)      Percent
Unemployment Insurance                                $65,996         93.17
Training and Employment Services                         3,950          5.58
State Unemployment Insurance and Employment
Service Operations                                         400          0.56
Community Service Employment for Older Americans           120          0.17
National Emergency Grants for Health Insurance
Coverage                                                    40          0.06
Job Corps                                                  250          0.35
Departmental Management                                     80          0.11
Total                                                $70,836b        100.00
a
 – The amounts other than Unemployment Insurance and National Emergency Grants for Health Insurance Coverage were
obtained from the Recovery Act dated February 17, 2009. The Unemployment Insurance amount was provided by the Office of
the Assistant Secretary for Administration and Management, and includes amounts made available for Federal and State
Extended Benefits, Extension of Emergency Unemployment Compensation, and Federal Additional Unemployment
Compensation programs. The National Emergency Grants for Health Insurance Coverage amounts were adjusted in United
States Public Law 111-226 (HR 1586).
b
 – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s Recovery Act
activities.




                                                              -4-
                                                                                                 Attachment 2



DM Recovery Act Obligations as of August 13, 2010 (unaudited)
                              Cumulative Dollars (000’s)
                                                                                      Currently Not Obligated
                                                                  Currently Not           Intend to       May Not
                                                 Obligated           Obligated             Obligate       Obligate
Agency                    Apportionment         (as of 8/13/10)     (as of 8/13/10)    (by 9/30/10)   (by 9/30/10)
Wage and Hour
Division                          $15,119            $9,584              $5,535          $3,977         $1,558
Employment and
Training Administration            14,968             7,765               7,203            4,446          2,757
Occupational Safety
and Health
Administration                     12,995             6,102               6,893            2,284          4,609
Employee Benefits
Security Administration              8,105            5,127               2,978            1,428          1,550
Office of Federal
Contract Compliance                  7,282            2,832               4,450            1,365          3,085
Office of the Solicitor              3,282            3,025                 257              257              0
Office of the Assistant
Secretary for
Administration and
Management                           2,502            1,737                  765             765                0
Office of Recovery for
Auto Communities and
Workers                                710               410                 300             300                0
Office of the Chief
Financial Officer                      621               392                 229             229                0
Office of Labor
Management
Standards                             470              151                 319                3           316
Not Obligated                      13,946                0              13,946            9,000         4,946
Total                             $80,000          $37,125             $42,875          $24,054       $18,821
Percent of
Apportionment                        100%            46.4%               53.6%            56.1%          43.9%
Source: Office of the Chief Financial Officer




                                                      -5-
                                                                                   Attachment 3




Three Approved Operating Plans for DM – Submitted to Congress (Unaudited)
                                       Cumulative Dollars (000’s)
                                                 Plan 1     Increase    Plan 2 Increase      Plan 3
Agency                                          4/15/09 (Decrease) 7/09/09 (Decrease)       2/24/10
Wage and Hour Division                         $21,987             $0 $21,987   ($6,868)    $15,119
Employment and Training Administration           10,000           750   10,750     4,218     14,968
Occupational Safety and Health
Administration                                  13,571               0  13,571     (576)     12,995
Employee Benefits Security Administration         9,705              0   9,705   (1,600)      8,105
Office of Federal Contract Compliance             7,200              0   7,200        82      7,282
Office of the Solicitor                           6,665       (3,035)    3,630     (348)      3,282
Office of the Assistant Secretary for
Administration and Management                     5,451                  5,451   (2,949)      2,502
Office of Recovery for Auto Communities and
Workers                                              -0-          710      710          0       710
Office of the Chief Financial Officer               700           300    1,000     (379)        621

Office of Labor Management Standards                581              0     581     (111)        470

 Planned for Obligation by 9/30/10              75,860               0  74,585          0    66,054

 Remaining Balance                                4,140         1,275    5,415     8,531     13,946

Total                                          $80,000             -0- $80,000        -0-   $80,000

Source: Department Operating Plans to Congress




                                               -6-
